           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

       ADMINISTRATIVE COSTS
   CLAIMED BY THE SOUTH CAROLINA
     DISABILITY DETERMINATION
              SERVICES

      October 2004 A-04-04-14053




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM


Date:   October 7, 2004                                                        Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the South Carolina Disability Determination Services
        (A-04-04-14053)

        OBJECTIVE

        Our objectives were to evaluate the South Carolina Disability Determination Services’
        (SC-DDS) internal controls over the accounting and reporting of administrative costs
        and determine whether costs claimed for Fiscal Years (FY) 2000 through 2002 were
        allowable and properly allocated, funds were properly drawn, and the general security
        controls environment was effective.

        BACKGROUND
        The Disability Insurance (DI) program was established in 1954 under Title II of the
        Social Security Act (Act).1 The program provides a benefit to wage earners and their
        families in the event the wage earner becomes disabled.2 The Supplemental Security
        Income (SSI) program (Title XVI of the Act) was created as a result of the Social
        Security Amendments of 1972, which became effective on January 1, 1974. SSI
        provides a nationally uniform program of income to financially needy individuals who are
        aged, blind, or disabled.3

        The Social Security Administration (SSA) is primarily responsible for implementing
        policies governing the development of disability claims under the DI and SSI programs.
        Disability determinations under both the DI and SSI programs are performed by a
        Disability Determination Service (DDS) in each State or other responsible jurisdiction.

        1
            Social Security Amendments of 1954 (Public Law Number 83-761).
        2
            Id.
        3
            Social Security Amendments of 1972 (Public Law Number 92-603).
Page 2 – Paul D. Barnes


Such determinations must be performed in accordance with Federal law and underlying
regulations.4 In carrying out its obligation, each DDS is responsible for determining
claimants’ disabilities and ensuring adequate evidence is obtained to support its
determinations.5 Each DDS is also authorized by SSA to purchase consultative medical
examinations, such as x-rays and laboratory tests, to supplement evidence obtained
from the claimants’ physicians or other treating sources.6

SSA authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures. Once approved, the DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system. Cash drawn from the Treasury to pay for program expenditures is to
be drawn according to intergovernmental agreements entered into by Treasury and the
States under the authority of the Cash Management Improvement Act of 1990 (CMIA).7
The Office of Management and Budget establishes principles and standards for
determining the allowability of costs for Federal awards carried out through grants, cost
reimbursement contracts, and other agreements with State and local governments and
federally recognized Indian tribal governments.8 At the end of each fiscal quarter, each
State agency submits to SSA a State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) to account for program disbursements, obligations and
unliquidated obligations.

SC-DDS is a component of the South Carolina Vocational Rehabilitation Department
(SC-VRD). The SC-VRD accounts for the DDS’ disbursements, completes and submits
Form SSA-4513 to SSA, and prepares requests to transfer cash from Treasury to the
State Treasurer. The State’s indirect costs for the DDS are determined based on rates
negotiated and approved by the Department of Education. As of April 30, 2004,
SC-DDS reported program disbursements and unliquidated obligations on Form
SSA-4513, as shown in Table 1.




4
    42 U.S.C. § 421 (2003); 20 C.F.R. part 404, subpart Q, and part 416, subpart J (2002).
5
    Id.
6
    Program Operations Manual System, DI 39545.001 B.4.
7
 Cash Management Improvement Act of 1990, Public Law Number 101-453 (amending
31 U.S.C. §§ 6501, 6503).
8
 Office of Management and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments.
Page 3 – Paul D. Barnes


       Table 1: SC-DDS Report of Disbursements and Unliquidated Obligations
                          for FYs 2000 Through 2002

              REPORTING ITEM                 FY 2000        FY 2001         FY 2002
 Disbursements
  Personnel                                  $12,786,171      $13,907,648     $14,621,318
  Medical                                      6,600,599        7,411,382       7,956,874
  Indirect Costs                               1,843,269        1,985,096       2,204,637
  Other                                        3,876,732        4,433,312       4,227,469
 Total Disbursements                          25,106,771       27,737,438      29,010,298
          Less: Non-Federal Disbursements      3,042,782        3,417,413       3,548,923
 Total SSA Related Disbursements             $22,063,989      $24,320,025     $25,461,375
 Unliquidated Obligations                              0                0         $66,799


SCOPE AND METHODOLOGY

We reviewed the administrative costs submitted by the State for the SC-DDS and
reported to SSA on Form SSA-4513 for the period October 1, 1999 through
September 30, 2002 (FYs 2000 through 2002). For the audit period, we tested the
reliability of the State’s computerized data by comparing disbursements—by category
and in total—with amounts reported on Form SSA-4513. We then obtained sufficient
evidence to evaluate administrative costs in terms of their allowability under Office of
Management and Budget Circular A-87 and appropriateness, as defined by SSA’s
Program Operations Manual System (POMS).

We also

   • reviewed applicable Federal regulations, pertinent parts of POMS, DI 39501, DDS
     Fiscal and Administrative Management, and other instructions pertaining to
     administrative costs incurred by the DDS and the requests for Federal funds
     covered by the CMIA agreement;

   • evaluated and tested internal controls regarding accounting, financial reporting,
     and cash management activities;

   • interviewed SC-DDS and SC-VRD personnel and SSA’s staff at the Atlanta
     Regional Office;

   • examined administrative expenditures (personnel, medical services, and all other
     non-personnel costs) claimed by the DDS for the period October 1, 1999 through
     September 30, 2002 (see Appendix B for our sampling methodology);

   • recomputed indirect costs for FYs 2000 through 2002 using approved indirect cost
     rates;
Page 4 – Paul D. Barnes


    • compared the amount of SSA funds requested and received for program
      operations to the allowable expenditures reported on Form SSA-4513;

    • reviewed work performed by South Carolina State auditors as part of the State of
      South Carolina Single Audit for FY 2000; and

    • conducted a physical inventory of equipment items and selected computer
      hardware items SSA provided to the SC-DDS.

We conducted field work from October 2003 through May 2004 at the SC-VRD and the
SC-DDS Divisional Office in Columbia, South Carolina, the Regional DDS offices in
Columbia, South Carolina, Greenville, South Carolina, and Charleston, South Carolina,
and SSA’s Regional Office in Atlanta, Georgia. We conducted this audit in accordance
with generally accepted government auditing standards.

RESULTS OF REVIEW

For FYs 2000 through 2002, disbursements the State charged SSA for the SC-DDS
were generally allowable and allocable, and the systems of internal control were
generally effective. However, in FYs 2001 and 2002, the State’s cash draws exceeded
allowable expenditures by $160,556. For the same FYs, cash draws exceeded SSA’s
authorized funding by $89,826. Additionally, for FY 2002, SC-DDS did not use $66,799
in unliquidated obligations; therefore, the funding authorization should be reduced by
this amount.

Regarding the costs submitted by the State for consultative examinations, in FY 2002,
the DDS paid at least $8,600 in excess consultative examination fees because of a
delay in updating its claims processing software. We also concluded that physical
security at the regional DDS offices could be improved. Specifically, non-DDS
personnel had unsupervised access to SC-DDS office space. Finally, the DDS did not
inventory 443 SSA-provided computers.

CASH MANAGEMENT

Cash Draws Exceeded Allowable Expenditures

As of April 30, 2004, the State’s cash draws for the SC-DDS exceeded its total
disbursements by $425 for FY 2001 and $160,131 for FY 2002. We determined the
excess draws were related to non-SSA work the DDS performed for other State
departments but charged to SSA.9 The DDS does not identify non-SSA work

9
 The SC-DDS performs work for the South Carolina State Health and Human Services Finance
Commission, the South Carolina Retirement System and the South Carolina Comptroller General’s
Office. For FYs 2000 to 2002, this work averaged about 12 percent of all the claims processed by the
DDS.
Page 5 – Paul D. Barnes


expenditures by distinct account or fund codes. Rather, to identify non-SSA
expenditures, the DDS multiplies the average cost per case by the number of non-SSA
cases processed. The resulting non-Federal share is deducted from the total DDS
expenditures to arrive at the SSA expenditures.

While we agree this method effectively estimates non-SSA work expenditures, we
determined the DDS did not limit cash draws to only expenditures allowed by SSA.
According to SSA policy, costs for non-SSA program work should be funded by the
agency requesting the work.10 The $160,556 in excess draws should be returned to
SSA. Table 2 shows a comparison of the cumulative draws to the allowable cumulative
disbursements.

                         Table 2: Cumulative Draws and Disbursements for
                                       FYs 2001 and 2002

                             Cumulative Draws and Disbursements
                                    for FYs 2001 and 2002
               FY              Cumulative        Cumulative         Excess Draws
                                 Draws         Disbursements
              2001              $24,320,451         $24,320,026               $425
              2002              $25,621,507         $25,461,376            $160,131

We discussed this matter with the SC-VRD Finance Director for the DDS, who agreed
the DDS drew funds in excess of allowable expenditures and stated the DDS is
returning excess funds.

Cash Draws Exceeded Authorizations

The SC-DDS’ cash draws exceeded SSA’s total funding authorization by $89,826—
$2,917 in FY 2001 and $86,909 in FY 2002. The ASAP system is used to authorize the
amount of funds that can be requested as cash draws from Treasury. Amounts
authorized for cash draws are based on the total obligational authority for DDS
operations. When the total obligational authority is reduced, the ASAP authority should
be reduced accordingly. Doing so reduces the risk the State can inadvertently request
funds in excess of its obligational authority. Funds requested from Treasury are
restricted solely for program use, and any unused money is to be returned to
Treasury.11 Table 3 summarizes the cumulative draws that exceeded authorizations for
FYs 2001 and 2002, respectively.




10
     POMS, DI 39518.040 A.
11
     42 U.S.C. § 421 (f) (2003).
Page 6 – Paul D. Barnes


                        Table 3: Cumulative Authorizations and Draws
                                   for FYs 2001 and 2002

                 Cumulative Authorizations and Cumulative Draws
                              For FYs 2001 and 2002
             FY           Cumulative       Cumulative       Unauthorized
                             Draws       Authorizations        Draws
            2001            $24,320,451      $24,317,534             $2,917
            2002            $25,621,507      $25,534,598            $86,909

The DDS incrementally draws cash against its authorized funds to cover its operating
expenditures. In certain periods, the DDS drew funds close to the level of its authorized
funding. However, after the funds were drawn, SSA reduced the DDS’ funding
authorization below the amount of funds already drawn, resulting in unauthorized draws.
The SC-DDS did not ensure excess funds were returned to coincide with the reduction
in funding.

Additionally, the DDS processes non-DDS work and draws cash for its total
expenditures, including non-DDS work. As a result, cash draws sometimes exceeded
the allowable Federal expenditures. The DDS acknowledged a portion of its authorized
funds were drawn in advance of the program’s expenditures and that an interest liability
accrued to the Treasury. However, the SC-DDS, in accordance with the CMIA, properly
reported and paid interest due on funds drawn in advance or in excess of the program
expenditures.

Unliquidated Obligations

The SC-DDS did not promptly adjust FY 2002 unliquidated obligations totaling $66,799,
which it reported to SSA on Form-4513. POMS requires that States review the status of
unliquidated obligations at least once a month and cancel those that are no longer
needed.12 The SC-DDS Finance Director informed us that a systems error prevented
the DDS from identifying and canceling the unliquidated obligation in FY 2002. She
subsequently determined that the unliquidated obligations would not be needed, and the
FY 2002 funding authorization should be reduced by this amount.

CONSULTATIVE EXAMINATION COSTS

The DDS obtains medical information necessary to determine whether an applicant
meets the eligibility criteria for DI or SSI benefit payments. When existing medical
evidence is insufficient, not available or cannot be obtained, the DDS is authorized to
purchase a consultative examination. The DDS establishes fee schedules for the
procedures it purchases. Each procedure in the fee schedule is identified by a Current


12
     POMS, DI 39506.203(A).
Page 7 – Paul D. Barnes


Procedural Terminology code (CPT).13 The SC-DDS developed a standardized fee
schedule that generally adopted the Medicare fee schedule.

Fees Paid in Excess of the Disability Determination Services’ Fee Schedule

Generally, the DDS paid consultative examination fees in accordance with its
established fee schedule. However, in FY 2002, the SC-DDS paid at least $8,600 in
consultative examination fees in excess of its own fee schedule. SSA’s POMS14 states

          The State will determine the rates of payment for medical or other services
          that are necessary to make a disability determination. The DDS will
          consider its fee schedule as a maximum payment schedule. Authorized
          payments will represent the lower of either:

             •   the provider’s usual and customary charge or,
             •   the maximum allowable charge under the fee schedule.

In February 2002, the DDS revised its fee schedule to reflect the current Medicare CPT
fee schedule. However, the SC-VRD did not update the VERSA15 records used at the
DDS to control consultative examination purchases until several weeks later. As a
result, some CPT codes were paid in excess of the newly adopted fee schedule. We
examined the fees paid for four CPT codes within the DDS fee schedule that
represented about 67 percent of the DDS’ FY 2002 consultative examination
expenditures (see Appendix B for our sampling methodology). Although the changes in
the fees for these codes were relatively small, the volume of codes processed resulted
in excess fees paid, totaling about $8,600.

PHYSICAL SECURITY AND INVENTORY CONTROLS

Physical Security

During our audit, we observed that non-DDS personnel had unsupervised access to the
SC-DDS office space. At one regional DDS office, we observed the janitorial staff,
which was working after business hours, had propped the front doors open while it
cleaned. We also observed the janitorial staff was unsupervised and had access to
sensitive SSA claims information. Moreover, we were told the janitorial staff for another
SC-DDS regional office had the building keys so it could access the office after
business hours to clean.


13
  The term is defined by the American Medical Association and is used to identify each procedure in the
fee schedule.
14
     POMS, DI 39545.210 1.a. and b.
15
  Disability claims at the SC-DDS are processed using VERSA computer software, a claims processing
application.
Page 8 – Paul D. Barnes


Two of the SC-DDS regional offices had neither an intrusion detection system nor a
24-hour security protection to detect unauthorized entry. Further, SC-DDS officials
indicated personnel at these locations did not secure all sensitive information nightly.
We observed that both of the locations had glass doors, which, if broken, would allow
easy and undetected access to the building and the unsecured sensitive SSA
information maintained inside.

According to POMS, “SSA requires that all claimant records and files be maintained in a
locked drawer, cabinet or room when there is no authorized individual on location (this
requirement is waived if the area is guarded, or protected by an electronic pass system
which limits entrance to authorized individuals.)” 16 Physical safeguards are important to
ensure security and confidentiality of sensitive SSA records.

Lack of Control over Computer Inventory

SC-DDS’ inventory list did not reflect 443 computers SSA purchased for the DDS.
According to SSA instructions, “The State is responsible for maintenance and inventory
of all equipment acquired whether purchased through SSA or the State.”17 The
computers were not included on the SC-DDS inventory because the State was
uncertain who owned the equipment. Failure to maintain a current and accurate
inventory list reduces the DDS’ ability to properly safeguard its assets.

CONCLUSIONS AND RECOMMENDATIONS

Generally, disbursements the State charged SSA for the SC-DDS’ FYs 2000 through
2002 costs were allowable and allocable. Additionally, the SC-VRD and SC-DDS’
systems of internal control were generally effective. However, we believe the SC-DDS
needs to improve its cash management. Specifically, the DDS needs to ensure cash
draws do not exceed allowable Federal expenditures or SSA’s funding authorization.
Further, we believe physical security could be improved at SC-DDS offices.

We recommend that SSA instruct the SC-DDS to:

1. Return $425 for FY 2001 and $160,131 for FY 2002 in cash draws that exceeded
   disbursements.

2. Return excess draws to coincide with SSA’s reduction in authorized funding.

3. Review and adjust unliquidated obligations in a timely manner.

4. Return $8,600 for consultative exam fees that exceeded the fee schedule in
   FY 2002.


16
     POMS, DI 39566.080 A.1.
17
     POMS, DI 39530.020.
Page 9 – Paul D. Barnes


5. Restrict non-DDS personnel from unsupervised access to sensitive SSA records.

6. Consider installing an intrusion detection system at the DDS regional offices that do
   not have 24-hour security protection.

7. Inventory all SSA-furnished equipment.

AGENCY COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE

SSA and the SC-VRD generally agreed with our recommendations. In response to
Recommendation 4, SSA agreed with our finding that $8,600 in excess CE fees were
paid to the SC-DDS. However, the Agency did not believe the fees should be
recovered because they were paid in good faith for services rendered, and the cost of
recovering the fees from the various providers would not be cost-effective for the
SC-DDS. We accept the Agency’s explanation and concur with SSA’s decision not to
recover the fees from the SC-VRD. Regarding Recommendation 7, SSA agreed with
our recommendation; however, SC-VRD agreed only to inventory all SSA-furnished
equipment over $1,000. We encourage the SC-VRD to comply with our
recommendation to inventory all SSA-furnished equipment according to SSA policy.
See Appendices C and D for the full text of SSA and SC-VRD’s comments.




                                                S
                                                Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Sampling Methodology

APPENDIX C – Agency Comments

APPENDIX D – South Carolina Vocational Rehabilitation Department Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payments
C.F.R.     Code of Federal Regulations
CMIA       Cash Management Improvement Act
CPT        Current Procedural Terminology
DI         Disability Insurance
DDS        Disability Determination Services
FY         Fiscal Year
POMS       Program Operations Manual System
SC-DDS     South Carolina Disability Determination Services
SC-VRD     South Carolina Vocational Rehabilitation Department
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
                                                                     Appendix B

Sampling Methodology
Our sampling methodology encompassed three general areas of costs as reported on
the Social Security Administration’s (SSA) Form SSA-4513, State Agency Report of
Obligations for SSA Disability Programs: (1) Personnel, (2) Medical, and (3) All Other
Non-personnel Costs. We obtained computerized data from the South Carolina
Vocational Rehabilitation Department (SC-VRD) for Fiscal Years (FY) 2000 through
2002 for use in statistical sampling. After selecting and reviewing randomly selected
samples, we did not identify errors we felt warranted audit projection.

Personnel Costs
We reviewed 50 personnel transactions from 1 pay period in FY 2002. The sample
included three employees the South Carolina Disability Determination Service hired as
medical consultants. We tested SC-VRD payroll records to ensure it correctly paid
employees and adequately documented these payments.

Medical Costs
We sampled 150 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between Medical Evidence of Record and
consultative examinations based on the proportional distribution of the total medical
costs for each year.

All Other Non-personnel Costs
We selected a stratified random sample of 150 items (50 items from each FY) from the
All Other Non-personnel Costs category. Before selecting the sample items, we sorted
the transactions into the following categories: (1) Occupancy, (2) Contracted Costs,
(3) Electronic Data Processing Maintenance, (4) Equipment Purchases, (5) Equipment
Rental, (6) Communication, (7) Applicant Travel, (8) Disability Determination Service
(DDS) Travel, (9) Supplies, and (10) Miscellaneous. We then distributed the 50 sample
items for each year between categories based on the proportional distribution of the
costs.

Consultative Examination Costs
For FY 2002, we judgmentally selected and tested 100 percent of the fees paid for
four Current Procedural Terminology (CPT) codes related to the purchase of
consultative examinations. These four CPT codes–99204, 96100, 90801, and 99244–
represented about 67 percent of the Disability Determination Services’ (DDS) FY 2002
consultative examination expenditures. In FY 2002, the DDS’ consultative examination
expenditures totaled $5,794,469, of which $3,905,881 (67 percent) was charged to
these four CPT codes.
                  Appendix C

Agency Comments
                                    SOCIAL SECURITY

MEMORANDUM

Date:    September 10, 2004                               Refer To: K Killam 2-5727

To:      Assistant Inspector General for Audit

From:    Regional Commissioner
         Atlanta

Subject: Administrative Costs Claimed by the South Carolina Disability Determination Services
         (A-04-04-14053) – (Your Memo, 8/12/04)--REPLY


         Thank you for the opportunity to comment on the validity of the facts and
         reasonableness of the recommendations presented in your audit report
         (A-04-04-14053) on the administrative costs claimed by the South Carolina
         Disability Determination Services (SC DDS) for fiscal years (FY) 2000 through
         2002.

         We believe that the OIG audit was detailed and thorough. The auditors found that
         while disbursements made by the South Carolina Vocational Rehabilitation
         Department (SC-VRD) and the SC DDS were generally allowable, there were a
         few deficiencies. Specifically, we concur that the SC DDS’s cash draws exceeded
         allowable expenditures for FY 01 and FY 02, and that unliquidated obligations
         were not deobligated timely for FY 02. Our response to the seven
         recommendations is as follows:

      1. Return $425 for FY 2001 and $160,131 for FY 2002 in cash draws that
         exceeded disbursements.

         We concur with this recommendation and the SC-VRD has already corrected this
         finding. On May 25, 2004, the SC-VRD submitted a revised State Agency Report
         of Obligations for SSA Disability Programs (SSA-4513) for FY 2001 and FY 2002.
         The reports agree with their cash draws. No further action is required.




                                                 C-1
2. Return excess draws to coincide with SSA’s reduction in authorized
   funding.

   We concur with this recommendation and the SC-VRD has already corrected this
   finding. On May 25, 2004, the SC-VRD submitted a revised State Agency Report
   of Obligations for SSA Disability Programs (SSA-4513) for FY 2001 and FY 2002.
   The reports agree with their reduced authorized funding. No further action is
   required.

3. Review and adjust unliquidated obligations in a timely manner.

   We concur with this recommendation. The SC-VRD and the SC DDS have been
   reminded of their responsibility in this critical area. Further, both the Regional
   Office’s Financial Management Team and the Disability Program Administrator
   (DPA) discuss this issue with the SC DDS and the SC-VRD on a periodic basis as
   part of site visits. We will continue to monitor any unliquidated obligations of the
   SC DDS on an ongoing basis.

4. Return $8,600 for consultative exam fees that exceeded the fee schedule in
   FY 2002.

   We concur with the finding that excess consultative exam fees were paid, but not
   with the recommendation to return the $8,600. The SC-VRD downloaded, as is
   the normal practice, the new 2002 fee schedules from Medicare on December 15,
   2001. However, because of errors in the fee schedule, the information had to be
   retracted. The corrected Medicare fee schedule was not available until sometime
   in January 2002, so the new Medicare fee schedule was not effective until
   February 1, 2002. Therefore, all fees paid prior to February 2002, were paid
   under the fee schedule authorization in place at the time. Since the SC DDS
   followed the procedures provided by the SC-VRD and paid the fees in good faith,
   and the costs to collect any overpaid fees from so many various sources would
   out-weigh any savings, reimbursement for the fee overage is not deemed
   appropriate.

5. Restrict non-DDS personnel from unsupervised access to sensitive SSA
   records.

   We concur with this recommendation. A memo was sent to the building landlord
   of the Greenville DDS to request daytime cleaning. As a result, the cleaning staff
   works during the day and has also stopped propping doors open. The Charleston
   DDS moved to a new location in August 2004. The requirement to have daytime
   cleaning was written into their new contract. In the Columbia DDS, the landlord
   has accommodated our request and now provides cleaning during regular DDS
   work hours. No further action is required.




                                        C-2
6. Consider installing an intrusion detection system at the DDS regional offices
   that do not have 24-hour security protection.

    We concur with this recommendation. The Greenville office is located in a secure
   building with 24-hour guard service and does not require an intrusion detection
   system (IDS). We have, however, requested funding from year-end special
   expense funds to install an IDS in the Charleston office, and we are awaiting a
   response from our Central Office (CO). If CO gives the DDS funding, then the
   Charleston office will install the system. The Columbia DDS is currently in the
   process of obtaining estimates about how much it would cost to install an IDS.
   We will continue to work with the Charleston and Columbia offices and if funding is
   provided, ensure that an IDS is installed in each location.

7. Inventory all SSA-furnished equipment.

   We concur with this recommendation. The State of South Carolina requires that
   only items valued in excess of $1,500 need to be inventoried. However, the SC
   DDS will comply with SSA’s Program Operations Manual System (POMS)
   requirement to keep a complete inventory of all SSA furnished computers. No
   further action is required.

   Please contact me if I can be of further assistance. Staff questions should be
   referred to Karen Killam at (404) 562-5727 or Barbara Hites at (404) 562-1419.


                                             /s/
                                           Paul D. Barnes

   cc: Mr. Larry Bryant
      Mr. Thomas Paine




                                        C-3
                                     Appendix D

South Carolina Vocational Rehabilitation
Department Comments
September 13, 2004



Mr. Steven L. Schaeffer
Assistant Inspector General for Audit
Office of Inspector General
Social Security Administration
Baltimore, MD. 21235-0001


Dear Mr. Schaeffer:

We have reviewed the Auditor’s report of fiscal years 2000.through 2002. Attached is
our response to the audit.

Thank you for your assistance and if you have any questions or we can be of any
further service please contact Preston Coleman at 803-896-6506 or by e-mail
pcoleman@scvrd.state.sc.us.


Sincerely,



Larry C. Bryant
Commissioner



LB/re

PC:     Preston Coleman
        Rick Elam
        Maisy Babbitt
        Tom Paige
        Shirley Jarrett
        Ken Norris
        Barbara Hites




                                          D-1
               South Carolina Vocational Rehabilitation Department
                        Disability Determination Services
                       Audit Response for FY 2000 - 2002

Recommendation 1, 2, & 3: Cash draws, authorized funding, & unliquidated
obligations

Response: Funds are drawn down based on authorized obligations during the year. At
the close of each fiscal year, funds drawn are reconciled with actual expenditures. Any
excess funds are remitted to SSA. SSA adjusts the final authorization based on the
actual expenditures. For FY 2001 and 2002, the funds drawn have been reconciled with
the actual expenditures and the excess funds have been returned to SSA.

Recommendation 4: Return $8,600 for consultative exam fees that exceeded the fee
schedule in FY 2002.

Response: Based on the Vocational Rehabilitation Department normal procedures, the
fee schedule for the upcoming year is downloaded from Medicare on December 15.
However, during this time period the Medicare Fee Schedule contained several errors
and was retracted for correction. The corrected Fee Schedule wasn’t available until the
New Year was in progress. Therefore, the Vocational Rehabilitation Department
authorized the 2002 Medicare Fee Schedule effective February 1, 2002. The
department informed Disability Determination Services that “any authorizations dated
January 2, 2001 through January 31, 2002 will be paid as authorized”; in essence these
authorizations were made in good faith and the circumstances did not merit
disallowance of these expenditures.

Recommendation 5: Restrict non-DDS personnel from unsupervised access to
sensitive SSA records.

Response: We concur and will initiate procedures to correct deficiencies. The janitorial
crews in each office have been instructed to clean the offices only during official
business hours (8:30 AM – 5PM).

Recommendation 6: Consider installing an intrusion detection system at the DDS
regional offices that do not have 24-hour security protection.

Response: The DDS is investigating the types and costs of several intrusion detection
systems and will begin the bid process once the acceptable specifications are written.

Recommendation 7: Inventory all SSA-furnished equipment

Response: We will need SSA to send a listing of all equipment that has a value of
$1,000 or more. Once received, we will issue a VR equipment inventory
number/barcode to each item of equipment and add the items to SCVRD equipment
inventory listing. A physical inventory can then be taken as required.


                                           D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Deputy Director, (404) 562-5552

Acknowledgments

In addition to those named above:

   David McGhee, Auditor

   Kenneth Bennett, Information Technology Specialist

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-04-04-14053.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
